                                    Press Release
FOR IMMEDIATE RELEASE                                                     Contact: Jonathan Lasher
August 15, 2014                                                           Phone: (410) 965-2671
http://oig.ssa.gov


 Social Security, OIG Partner with Michigan on Anti-Fraud Unit
         Cooperative Effort among Federal, State Agencies to Prevent Disability Fraud

The Social Security Administration (SSA), its Office of the Inspector General (OIG), and the Michigan
Department of Human Services today announced a new Cooperative Disability Investigations (CDI)
Unit in Detroit. As part of the nationwide CDI Program, the Detroit Unit will identify and prevent Social
Security disability fraud throughout the State of Michigan.

The CDI program is one of Social Security’s most successful anti-fraud initiatives, contributing to the
integrity of Federal disability programs. CDI brings together personnel from SSA, its OIG, State
Disability Determination Services (DDS), and local law enforcement agencies to analyze and investigate
suspicious or questionable Social Security disability claims, to help resolve questions of potential fraud
before benefits are ever paid. CDI efforts help disability examiners make informed decisions, ensure
payment accuracy, and generate significant taxpayer savings, for both Federal and State programs.

“For more than 16 years, CDI has had tremendous success in identifying and preventing disability fraud
and abuse,” said Social Security Inspector General Patrick P. O’Carroll, Jr. “We’re very pleased to
partner with the Michigan Department of Human Services to expand our efforts to combat fraud and to
ensure the integrity of Social Security’s disability programs for the citizens of Michigan.”

With the opening of the Detroit Unit, the CDI program now consists of 26 units covering 22 States and
the Commonwealth of Puerto Rico. The Detroit CDI Unit is the first of seven new CDI units that SSA
and the OIG plan to establish by the end of fiscal year 2016, as part of a renewed agency effort to root
out disability fraud and preserve benefits for those who truly deserve them.

“Social Security’s most successful collaboration with the OIG in the area of disability fraud
investigation and prevention is the CDI program. These units play a critical role in preventing fraud and
investigating complex conspiracies and we are excited to establish a new unit in Detroit,” said Carolyn
W. Colvin, Acting Commissioner of Social Security. “I thank the Michigan Department of Human
Services for their involvement, and Social Security will continue to expand the number of CDI units
throughout the country to combat fraud and preserve public trust in our programs.”

The Detroit CDI Unit will include an OIG special agent, an SSA program expert, a State disability
examiner and an investigative analyst, and two investigators from the Michigan OIG. Both the Michigan
DDS and OIG operate within the Michigan Department of Human Services (DHS).
                                     Press Release
“I am excited about this state and federal partnership. Working together, we can be better stewards of
taxpayer dollars and make sure that disability assistance helps people who are truly in need,” said
Michigan DHS Director Maura D. Corrigan. “Cracking down on fraud has been one of my top priorities.
The CDI Unit provides another important tool for these important efforts.”
SSA and its OIG jointly established the CDI program in 1997. Since CDI was established, CDI efforts
have contributed to $2.8 billion in projected savings to Social Security’s programs, and $1.8 billion in
projected savings to related Federal and State programs. For more information on the CDI program,
please visit the OIG website.

Public citizens who would like to report suspected disability fraud should contact the Social Security
Fraud Hotline at http://oig.ssa.gov/report; send U.S. Mail to PO Box 17768, Baltimore, MD, 21235; fax
(410) 597-0118; or call (800) 269-0271 from 10 a.m. to 4 p.m. Eastern Time, Monday through Friday.

For more information, please contact Jonathan Lasher, Assistant Inspector General for External
Relations, at (410) 965-2671.
